U.S. Department of Labor                  Inspector General
                                          Washington. D.C 20210

JUL 2, 1998

MEMORANDUM FOR:               BERNARD E. ANDERSON
                              Assistant Secretary for Employment Standards

FROM:                         F.M. BROADAWAY
                              Assistant Inspector General for Analysis, Complaints and
                              Evaluations

SUBJECT:                      Review of FECA Program Administration
                              Report No. 15-OACE-98-OWCP

This memorandum report presents the results of a review of the administration of the Federal
Employees’ Compensation program conducted by the Office of Inspector General (OIG), Office
of Analysis, Complaints and Evaluations, to address selective issues raised in a letter to the
Assistant Secretary for Employment Standards and forwarded to OIG by the Office of the
Secretary. The objective of our review was to evaluate the complainant’s concerns with respect
to the acceptance of initial claims for benefits filed under the Federal Employees’ Compensation
Act (FECA), the termination of benefits and the appeals process administered by the Branch of
Hearings and Review. Our review did not confirm the existence of a systemic anti-claimant bias
in the Office of Workers’ Compensation Programs (OWCP) but, instead, found evidence of a
balanced commitment by the agency to both improving the quality of service to claimants and
ensuring the cost-effective administration of the program. With respect to four specific issues
cited by the complainant as illustrative of the program’s bias, we did not identify matters
requiring corrective action at this time but have deferred evaluation of one issue pending an
assessment of a related proposal by ESA’s Reinvention Team. This memorandum, therefore, is
provided for informational purposes and does not require a response.

I.     Background

In response to a referral from the Office of the Secretary, the Office of Inspector General, Office
of Analysis, Complaints and Evaluations, Division of Evaluations and Inspections, conducted an
evaluation of selective issues raised in a letter to the Assistant Secretary for Employment
Standards. The letter, dated September 2, 1997, raised concerns about systemic anti-claimant
bias in OWCP and the Office’s Division of Federal Employees’ Compensation (DFEC) in
administering the claims approval, management and appeal processes of FECA and provided
various examples as evidence of the systemic bias. The letter also included complaints pertaining
to employee relations matters such as the workload of Hearing Representatives assigned to the
Branch of Hearings and Review, overtime, and travel policies. However, in keeping with OIG
policy, our review was limited to program areas and the complainant was advised to pursue the
Fair Labor Standards Act complaints and other personnel matters with the labor relations staff of
the Employment Standards Administration (ESA).
II.    Scope and Methodology

The overall objective of the review was to evaluate the concerns cited in the letter with respect to
the propriety and effectiveness of the acceptance of initial claims for benefits filed under FECA,
the termination of benefits and the appeals process administered by the Branch of Hearings and
Review. In conducting our evaluation, we reviewed documentation, conducted interviews, and
analyzed statistical information provided by OWCP and the Employees’ Compensation Appeals
Board (ECAB). We reviewed a variety of documents prepared by the complainant, including the
September 2, 1997 letter to the Assistant Secretary for Employment Standards, the paper titled
Genesis and Development of DFEC Abuses, a legal analysis concerning impartial physicians and
an analysis of the General Accounting Office (GAO) report, No Evidence That Labor’s
Physician Selection Processes Biased Claims Decisions (GAO/GGD-94-67). In addition to the
GAO report cited, we also reviewed the U.S. District Court decisions Chakios vs. Reich, et. al.,
Civ. A. No. 95-1763 (W.D. Pa., Aug. 25, 1997) and McDougal-Saddler vs. Herman, Civ. A.
No. 97-1908 (E.D. Pa., Dec. 24, 1997), as well as OWCP’s Strategic Plan, correspondence and
statistical information from OWCP and ECAB. Interviews were conducted with 10 randomly
selected Hearing Representatives employed by the Branch of Hearings and Review for over six
months and with the complainant. Lastly, we interviewed various OWCP management officials.

Our review was conducted in accordance with the Quality Standards for Inspections published
by the President’s Council on Integrity and Efficiency.

III.   Review Results

The specific issues raised by the complainant fall within the framework of more fundamental,
systemic concerns discussed in various documents about changes in the administration of’ the
FECA program during the past several years, illustrated by the following statement from the
September 2, 1997 letter to the Assistant Secretary for Employment Standards:

       “the program charged with enforcing this humanitarian legislation is permeated by anti-
       Claimant bias from top to bottom and routinely denies injured employees due process
       before terminating their benefits.”

In the paper, Genesis and Development of DFEC Abuses, which the complainant prepared and
provided to us, he cites OWCP’s presentations in the agency’s Annual Reports to Congress and
Congressional testimony about the agency’s management initiatives beginning in 1992,
including the Periodic Roll Management Project, the short term rolls and Quality Case
Management, to support a conclusion that, “DFEC chooses to measure program success by the
amount of compensation benefits saved.” The paper provides statistics pertaining to changes in
the number of long-term disability cases (the periodic roll), increases in the total merit decisions
issued by the Branch of Hearings and Review and a 45 percent rate of remands between 1991
and 1996 as further evidence of the program’s direction. With respect to the Annual Reports and
Congressional testimony, the author of the paper commented, “...none of the OWCP Reports
identify the reduction of improper denials as a goal. As noted above, the goal is the reduction of
compensation costs."
Our evaluation of OWCP’s Strategic Plan, review of the Acting Director’s testimony before the
Subcommittee on Workforce Protections of the House Committee on Education and the
Workforce and analysis of the statistical information pertaining to the Branch of Hearings and
Reviews did not confirm the complainant’s position regarding the current direction of the FECA
program. Rather than an exclusive focus on reducing costs, the documents we reviewed reflect a
balanced commitment by OWCP to both improving the quality of service to claimants and
ensuring the cost-effective administration of the program. Furthermore, our analysis of the
statistical information calls into question the complainant’s use of this data to conclude that the
management practices instituted since 1992 have been responsible for a deterioration in the
quality of decisions adversely impacting claimant’s benefits.

In establishing the agency’s major goals and the measures to be used to determine success,
OWCP’s Strategic Plan for the five-year period ending in 2002 emphasizes both customer
service and cost-effective program management. Four of the six goals outlined for the Federal
Employees’ Compensation program address core program performance issues, specifically: (1)
return to work; (2) service to injured workers; (3) program integrity; and (4) partnerships with
external customers. While the first three goals focus primarily on either service quality or cost-
effectiveness, the objective associated with the fourth goal links the two concepts. In fostering
partnerships with external customers, OWCP’s objective is that, “the program, employing
agencies, and Federal unions work as partners to improve the delivery system and ensure a cost-
effective Federal employees’ benefit program.”

The performance measures included in OWCP’s Strategic Plan further contradict the contention
that the agency has not identified the reduction of improper denials as a goal. In this regard, one
of the nine performance measures identified under the plan’s goal of service to injured workers is
to, “track quality improvement using an indicator based on selected accountability review items.”
The indicator referenced in the performance measure is comprised of the five accountability
review items which form the “quality index” explained in the Director for Federal Employees’
Compensation’s January 13, 1997 memorandum to Regional and District Directors. The items
focus on claims examiner actions which would deny or reduce claimant benefits. The
memorandum explains, “We chose these five items because they provide a good measure of
decisions and adjudicatory actions, and we hope to correlate findings in these items with remand
and reversal rates in cases appealed to the ECAB.”

The testimony by the Acting Director, OWCP, on September 30, 1997, before the Subcommittee
on Workforce Protections of the House Committee on Education and the Workforce offers a
comprehensive historical perspective on the FECA program, discusses significant recent
accomplishments in customer service and program cost-effectiveness and explains the agency’s
goals for future improvements in both areas. OWCP’s management initiatives beginning in 1992
to reduce the growth of the periodic rolls received major attention in the testimony, as noted by
the complainant. However, the complainant did not recognize in his paper that the growth in the
rolls was, in part, a factor of a serious adjudication backlog in the 1980s which prevented OWCP
from devoting adequate resources to effective case management for over a decade. In several
passages, the Congressional testimony highlights the integration between the claimant service
and cost-effectiveness objectives, for example in the following discussion of the involvement of
more than 1500 contract rehabilitation nurses in the Quality Case Management initiative.
       “These nurses intervene in more than 10,000 cases per year, helping in the early days of
       disability to facilitate communications, ensure effective medical treatment, and aid the
       employer in finding ways to bring the injured person back to the workplace before the
       psychology of disability replaces the worker’s connection to the job.”

Additional major claimant service accomplishments referenced in the testimony but overlooked
in the Genesis and Development of DFEC Abuses include OWCP’s rapid response to the
Oklahoma City bombing and the streamlining of occupational disease case processing, resulting
in a reported 29 percent decrease in the average number of days required to adjudicate such
cases. Finally, the Congressional testimony also included extensive discussion of OWCP’s
Strategic Plan with its goals for improving both customer service and cost-effective
administration, as described in the paragraphs above.

Our analysis of the statistical data presented by the complainant to support his position that the
introduction of the Periodic Roll Management Project and Quality Case Management has
resulted in flawed claims examiner decisions with adverse impacts on claimants raised questions
about both the data used and the interpretation of that data. The complainant calculated the
percentage of total merit decisions (i.e., total hearing dispositions minus dismissals, withdrawals
and no-shows) issued by the Branch of Hearings and Review which were remanded to the
District Offices for a new decision as a measure of the quality of the claims examiners’ original
decisions. In various documents, the complainant cites the remand rate as 45 percent of total
merit decisions and attributes this high rate to improper claims examiner decisions driven by
management’s emphasis on reducing costs through the Periodic Roll Management Project and
Quality Case Management. OWCP officials noted that the reliability of Hearings and Review
decisions as a measure of the accuracy of claims examiners’ decisions is somewhat limited since
the claimant may and often does introduce new information at a hearing which was not available
to the claims examiner at the time of the original decision. While we recognize the cautions on
reliability cited by the OWCP officials, we noted that the data presented by the complainant
tends more to refute than to support his conclusion that the management initiatives implemented
in 1992 were responsible for improper claims examiner decisions to deny benefits, as reflected
by the remand rates. Our analysis of a chart prepared by the complainant, showing an average
remand rate of 45 percent of total merit decisions for the period 1988 through 1996, determined
that the remand rate for the period 1988 through 1992 was 48 percent, whereas the remand rate
for 1993 through 1996, after the introduction of the management initiatives, showed a modest
improvement to 42 percent. OWCP bases its calculation of the Hearings and Review remand rate
on the outcomes of all appeal cases received; the agency’s statistics for 1992 through 1997 show
remand rates for total hearing actions or dispositions ranging from a high of 33 percent to a low
of 27 percent, with the highest remand rate occurring in 1992, prior to the full implementation of
the Periodic Roll Management Project and Quality Case Management.

In order to further evaluate the systemic program management concerns raised by the
complainant, we analyzed statistical information provided by the Employees’ Compensation
Appeals Board (ECAB). Since the ECAB appeal process operates independently from OWCP,
the disposition of cases appealed to the Board would not be directly influenced by changes in
OWCP’s management priorities; to the contrary, if OWCP management were pressuring both
claims examiners and Hearing Representatives to improperly deny claimant benefits, an increase
in the number of reversals and remands could be expected on cases appealed to ECAB.
Furthermore, ECAB does not accept new information from either the claimant or OWCP and its
dispositions may, therefore, be more indicative of the validity of claims examiners’ decisions and
the propriety of OWCP’s procedures and program guidance. ECAB data for the period FY 1990
through May 1998 shows a pattern similar to the statistics for the Branch of Hearings and
Review, with reversals and remands steadily declining from a high of 43 percent in FY 1990 to a
low of 26 percent for FY 1998, to date. We separately analyzed the ECAB statistics for decisions
which address policy questions and final orders which focus on procedural matters and, for both
types of dispositions, the pattern of steady, gradual decline in the percentages of cases reversed
and remanded prevailed.

In addition to the systemic program issues raised by the complainant, we focused our review on
four specific issues cited as examples illustrating OWCP’s anti-claimant bias. The following
sections discuss the results of our reviews of these issues.

       A.      Examination by an Impartial Third Physician

               The complainant’s concerns that OWCP has promulgated improper procedures,
               resulting in the routine termination of FECA benefits without affording claimants
               their statutory right to an examination by a third physician, have been refuted by
               two Court decisions. Furthermore, no Hearing Representative we interviewed
               shared the complainant’s reservations on this matter. The FECA statute and
               regulations require the appointment of a third physician in the event of a
               disagreement between a second opinion physician under contract to OWCP and
               the injured employee’s physician. The FECA Procedure Manual provides further
               guidance to assist a claims examiner in determining those circumstances in which
               a conflict requiring referral to a third physician exists. The complainant prepared
               an analysis offering four reasons why, in his opinion, FECA’s Procedure Manual
               is improper: the statutory language is clear; the regulatory language is clear;
               ECAB’s analysis of the procedure is flawed; and OWCP failed to adhere to the
               requirements of the Administrative Procedure Act when the agency promulgated
               the procedure. However, the U.S. District Courts in both Chakios vs. Reich, et. al.
               and McDougal-Saddler vs. Herman upheld the interpretations incorporated in the
               FECA Procedure Manual.

               The Federal Employees’ Compensation Act [5 U.S.C., section 8123 (a)] provides
               that, “If there is disagreement between the physician making an examination for
               the United States and the physician of the employee, the Secretary shall appoint a
               third physician who shall make an examination.” The regulation contains virtually
               identical language (20 CFR § 10.408). The FECA Procedure Manual provision
               with which the complainant takes issue, PM 2-810.9h provides as follows:

                      “The findings or opinions of an independent specialist will often differ
                      from those of the claimant’s attending physician. If of equal weight, the
                      differing opinions would constitute a conflict requiring referral to a third
       physician. This is a time-consuming process which is not always
       necessary. Frequently a decision can be reached by weighing the medical
       evidence of record without referral to a referee specialist.”

The Procedure Manual provides several examples of situations in which
differences of opinion “can in all probability be resolved without impartial
referral” by weighing the credentials or opinions of the two physicians. The
examples include comparing: (1) the opinion of a general practitioner against an
opinion from a Board-certified specialist in the appropriate speciality; (2) the
opinions of equally qualified physicians, but one opinion is based upon a
complete and accurate history of the injury while the other opinion is not; and (3)
the opinions of equally qualified physicians, one of whom submits a fully
rationalized opinion supported by objective findings, while the opinion of the
other physician is speculative, equivocal and/or unrationalized. The Manual (PM
2-810.11a) continues:

       "Careful analysis of the medical evidence should allow for resolution of
       most issues without resorting to a referee or ‘impartial’ specialist.
       However, where the analysis of the evidence demonstrates conflicting
       opinions or conclusions which are supported almost equally, the services
       of a referee specialist must be utilized.”

The complainant included four reasons why he considers the Procedure Manual’s
provisions for interpreting a disagreement between the attending physician and a
second opinion physician to be improper. First, the complainant concludes that
Section 8123(a) is clear on its face and requires referral to a third physician when
there is any disagreement between two doctors. Therefore, in his opinion, no
interpretation is proper or necessary. Second, the complainant argues that the
program regulations are consistent with the plain language of the statute and do
not contain any qualification on the requirement to refer claimants to a third,
impartial physician. Third, the complainant considers ECAB case law imposing
qualifications on this statutory requirement to be flawed. Finally, the complainant
argues that OWCP failed to adhere to the Administrative Procedures Act when it
promulgated its Procedure Manual because no opportunity was provided for
public comment.

Two U.S. District Courts issued unreported opinions during 1997 on civil actions
seeking to challenge the termination of claimants’ workers’ compensation
benefits on the basis of a second (or in one case, a third) medical opinion, without
recourse to examinations by impartial physicians. In both cases, the use of the
FECA Procedure Manual’s guidance to determine that no disagreement existed
with the opinion of the injured workers’ physicians constituted a major issue.
While both cases are now on appeal, both uphold the current position of the
program expressed in the Manual and in the decisions of ECAB.

The first opinion, Chaklos vs. Reich, et. al., Civ. A. No. 95-1763 (W.D. Pa., Aug.
25, 1997) dismissed the plaintiffs case with prejudice and included the following
discussion with respect to the language of the statute and the Procedure Manual’s
guidance.

       “There is no dispute that the Secretary did not appoint a third physician,
       and that a third physician did not examine Chaklos. Yet, it does not
       necessarily follow that by failing to appoint a third physician, the
       Secretary violated a clear statutory mandate. I agree that the mandate is
       clear - a third physician must be appointed where a disagreement between
       the other physicians exists - but Cha/dos ‘ position presupposes that the
       claims examiner found a disagreement to exist between the physicians.

       The statute does not define ‘disagreement,’ nor does it provide guidelines
       for assessing the medical evidence. The OWCF procedures implementing
       section 8123(a), however, do provide the necessary guidelines... Given the
       examiner ‘s determination that no disagreement existed, there was no
       violation of the mandate to refer Chaklos to a third physician.”

The second case, McDougal -Saddler vs. Herman, Civ. A. No. 97-1908 (E.D. Pa.,
Dec. 24, 1997) dismissed an action challenging an ECAB decision which rested
on the procedures for weighing medical evidence, stating:

       “The Court concludes that FECA PM 2-810 instructs claims examiners in
       how to determine whether a ‘disagreement’ between physicians exists, and
       that defendant’s interpretation of 5 US. C., section 8123 (a), using FECA
       PM 2-810, is plausible. Under that interpretation, it was appropriate for
       ECAB to decide plaintiffs claim based on the weight of the medical
       evidence.

       ECAB did not violate a clear statutory mandate in evaluating plaintiff's
       claim. The statute did not, under the facts presented, require ECAB to
       remand the case for the appointment of an independent physician to
       conduct an examination of plaintiff”

The McDougal-Saddler opinion also addressed the Administrative Procedure Act
argument and found that: “FECA PM 2-810 is an interpretive rule which clarifies
the word ‘disagreement’ in 5 U.S.C. section 8123(a)...As an interpretive rule,
FECA PM 2-810 did not require public notice or a public comment period to be
valid.”

Although the complainant contends that both Court decisions as well as the
ECAB decisions are “deeply flawed,” our interviews with 10 Hearing
Representatives found that none shared the concerns regarding denials of
compensation claims based upon the report of a second opinion medical
examiner. More importantly, the program’s interpretation has been accepted by
ECAB and at least two District Courts and it is, therefore, appropriate for the
     program to follow the existing provisions of the FECA Procedure Manual in
     determining whether a referral to a third, impartial physician is required.

B.   Impartiality of Second Opinion Physicians

     We did not identify sufficient evidence that OWCP’s procedures have reduced the
     numbers and objectivity of physicians willing to provide second medical opinions
     (SECOP) under contract to the agency to warrant an in-depth study of this matter.
     The complainant indicated that the use of SEC OPs’ opinions to deny benefits, the
     burden of responding to the questions OWCP directs to SECOPs and the
     perception that the FECA process is of questionable impartiality have caused
     many doctors to discontinue accepting FECA referrals, thereby reducing the pool
     of available doctors to those willing to provide the opinions OWCP is seeking.
     However, a General Accounting Office (GAO) review conducted in 1994 of
     OWCP’s processes for selecting physicians did not identify problems with the
     agency’s practices at that time and the information with respect to conditions
     since 1994 does not, in our opinion, justify a new study.

     The GAO report, No Evidence That Labor’s Physician Selection Processes
     Biased Claims Decisions (GAO/GGD-94-67), issued in February 1994, addressed
     the selection of both second opinion physicians and physicians who conduct
     impartial medical examinations and stated, “We found no basis to conclude that
     OWCP was shopping for doctors who would be predisposed against claimants.”
     Among other procedures used to reach this conclusion, the GAO staff visited 5
     districts and reviewed 126 randomly selected cases in which claimants’
     compensation benefits were terminated in the period following their second
     opinion exams but no impartial medical examination was conducted. In 95
     percent of the cases GAO reviewed, termination of benefits was unrelated to the
     second opinion medical report but, instead, was attributable to the completion of
     payments due under a schedule award or the claimant’s return to work, election of
     retirement benefits or medical improvement. In only 5 percent of the cases were
     benefits terminated or not increased because the claims examiners, at least in part,
     gave more weight to second-opinion physicians’ medical reports than to
     claimants’ physicians’ reports.

     The complainant prepared a brief critique of the GAO report in which he
     discussed several reasons why he considers the report’s conclusions to be no
     longer valid and potentially not valid at the time. The basis for the complainant’s
     comments about the current validity of the GAO report focused on the increases
     in the numbers of SECOPs performed since the introduction of the Quality Case
     Management (QCM) initiative in FY 1994 and the high remand rate he has
     computed since 1994. GAO’s universe and sampling procedures were also
     questioned since open cases, which would have included terminations overturned
     on appeal, were not part of GAO’s universe. While the number of SECOPs
     performed has increased since 1994, this does not lead to a conclusion that the
     percentage of cases terminated based upon the weight given to a SECOP’s report
has also increased. We recognize the universe and sampling issues cited but we
are also cognizant that the sample size necessary to objectively assess the impact
of SECOP reports on all FECA cases, both open and closed, could not be justified
without credible evidence of a problem.

Notwithstanding the complainant’s observation that GAO did not review open
cases, his critique does not substantiate that the pool of SECOP physicians has
declined and consists primarily of those who will provide medical reports
supporting benefit termination. In this regard, OWCP does not maintain
information which would permit a comparative analysis for the last several years
of the number of physicians available nationwide to perform second opinion
examinations, or the number and results of such examinations by physician. The
complainant’s analysis of the GAO report and other writings suggest that a high
proportion of cases is remanded because benefits were improperly terminated
based upon SECOP reports, a conclusion which cannot be readily verified since
OWCP does not maintain the reasons for remands and reversals in an automated
system. However, in the opinion of a majority of the 10 Hearing Representatives
we interviewed, inappropriately weighing or relying upon SECOPs’ reports was
not a major cause for remands or reversals of claims examiners’ decisions to
terminate FECA benefits. Furthermore, in citing the remand rate, the complainant
included pre-hearing remands which accounted for more than half of all remands
and would rarely result from the questionable use of a SECOP report.

In response to our request for specific, direct support that OWCP refers injured
workers to SECOPs who provide opinions biased against the claimants, the
complainant offered only one example, an appealed case with which he was
familiar. The claimant cited had been scheduled by the FECA District Office for a
second opinion examination with a physician located on the opposite side of a
large city from the claimant’s residence, with no public transportation available
between the two points. The complainant concluded that, to inconvenience the
injured worker to that degree, the District Office must either have scheduled the
claimant with a physician OWCP was confident would prepare a report
supporting benefit termination or have had few physicians willing to accept cases
from OWCP. The complainant reported that this case was remanded to the
District Office.

An OWCP employee who accompanied the complainant provided clarifying
comments regarding the selection procedures for SECOPs and the use of second
opinion reports by claims examiners which contradicted, rather than supported,
the complainant’s concerns. Basing his explanations on his experience as a
District Office claims examiner, the accompanying employee advised that
SECOPs who consistently prepare medical opinions warranting termination of
benefits are the exception and the claims examiners are alert to such patterns.
Although SECOPs whose objectivity is suspect may continue, for a time, to
receive referrals under OWCP’s rotational system for physician referrals, the
District Office’s prior experience with the physician is carefully considered by the
     claims examiner as he/she weighs the information presented in the medical report.

C.   Supervision of the Hearings Process

     Our review identified minimal evidence supporting the complainant’s concern
     that the Director, DFEC’s review of draft decisions prepared by Hearing
     Representatives of the Branch of Hearings and Review constitutes an
     organizational conflict of interest or interferes with the issuance of fair decisions
     in favor of injured employees. The responsibilities of the DFEC Director, in our
     opinion, do not conflict with his supervision of the hearings function, whereas a
     direct reporting relationship between the Branch of Hearings and Review and the
     OWCP Director could validly raise such concerns. While a minority of the
     Hearing Representatives we interviewed shared the reservations of the
     complainant about an organizational conflict, the majority either expressed no
     concerns or supported the DFEC Director’s role. More importantly, the allegation
     that the Director, DFEC’s reviews of draft decisions interfere with the issuance of
     decisions to restore benefits to injured workers was not substantiated by either our
     interviews or the statistical outcomes of the appeal processes.

     The formal management structure of OWCP and the role of the Branch of
     Hearings and Review do not support, in our opinion, the existence of an
     organizational conflict of interest resulting from the DFEC Director’s review of
     draft hearings decisions, nor did the majority of the Hearing Representatives we
     interviewed perceive such a conflict. The Branch of Hearings and Review does
     not have an independent adjudicatory role and the decisions of the Hearing
     Representatives are, therefore, appropriately subject to program management’s
     review. The complainant indicated that, since the performance of the District
     Offices is measured, in part, by the accuracy of the claims examiners’ decisions,
     the DFEC Director has a vested interest in ensuring, that the Districts’ decisions
     are upheld. However, the DFEC Director does not directly supervise the District
     DFEC Offices but, instead, is responsible for establishing FECA policy and
     providing guidance to the Districts to ensure the consistent application of the
     statute; supervising the Branch of Hearings and Review enables the DFEC
     Director to effectively fulfill these responsibilities. Placing the Branch under the
     supervision of the Director, OWCP, who has direct line management authority
     over the District Offices and, therefore, greater responsibility for their
     performance would give rise to a more significant appearance of organizational
     conflict. While three of the Hearing Representatives we contacted expressed some
     reservations about the organizational role of the DFEC Director, the remaining
     seven were either unconcerned or firmly supported the current structure as
     essential for the effectiveness of the agency.

     Neither our interviews nor our analysis of appeals’ results confirmed that the
     DFEC Director actively interferes in the issuance of decisions favoring injured
     workers. While the majority of Hearing Representatives indicated that requests
     for revisions were more likely for draft decisions to remand a case to the District
               Office, such requests were infrequent overall and generally involved improving
               support or presentation. Requests to revise a draft decision from remanding a case
               to upholding a denial of benefits were exceptional, according to the Hearing
               Representatives, and the reviewers’ reasons in these rare instances did not prompt
               concerns. The interview of only one Hearing Representative provided limited
               support for the issue raised by the complainant; this Hearing Representative
               advised that he/she felt pressured and structured draft decisions before submission
               to provide the outcome expected to ensure the decisions would be accepted. The
               45 percent remand rate for issued decisions cited by the complainant is not
               indicative of interference by the DFEC Director in decisions favoring claimants
               and the lower reversal and remand statistics provided by ECAB also dispute that
               FECA claimants routinely receive unfair decisions from OWCP.

       D.      Burden of Proof Denials

               With respect to the complainant’s concerns that OWCP neither permits sufficient
               time for injured workers to provide the additional evidence necessary to perfect a
               compensation claim nor expeditiously reviews such information after a “burden of
               proof" denial, we have deferred potential evaluation of this issue pending an
               assessment of a related proposal by ESA’s Reinvention team. In his September 2,
               1997 letter to the Assistant Secretary, Employment Standards Administration and
               November 19, 1997 proposal to the ESA Reinvention team, the complainant
               indicated that OWCP’s reliance upon the appeal process to address requested
               evidence submitted by claimants after “burden of proof’ denials significantly
               delays the payment of compensation benefits to the injured worker and
               contributes to the Branch of Hearings and Review’s remand rate. The recent
               addition of Hearing Examiners in the Branch permits the preliminary screening
               and expedited remand of appealed cases which do not merit a hearing. However,
               OWCP management has recognized the potential for further improving service to
               claimants who did not meet the “burden of proof’ by the established deadlines
               reflected in the complainant’s proposal and is supporting a review of this process
               by the ESA Reinvention Team. Our contacts with the Reinvention team
               determined that the proposal is under consideration by a Reinvention Committee
               but a decision has not been reached on how to address the proposal. Therefore, we
               have postponed additional review of this issue pending action by the Reinvention
               Team.

In conclusion, our evaluation did not identify evidence of either a systemic anti-claimant bias in
the administration of the FECA program or issues warranting corrective actions at this time
within the four areas we reviewed. As noted above, we are available to assist the ESA
Reinvention Team with studies which could facilitate their review of improving service to
injured workers whose claims did not initially meet the burden of proof. Since no
recommendations for corrective action are provided in this memorandum, this report is
considered closed upon issuance and no response is required. We appreciate the cooperation
received from OWCP officials during the course of this review. If you have any questions
concerning this report, please contact Veronica M. Campbell at (202) 219-8446, ext. 143.
Major Contributors to this Report:

Thomas Roadley, Program Analyst
Ricardo Gomez, Program Analyst
